ME
MEMBERSHIP AGREEMENT
AND DISCLOSURES

Privacy Disclosure
Membership and Account Agreement
Funds Availability Policy Disclosure
Electronic Fund Transfers Agreement & Disclosure

© CUNA Mutual Group All Rights Reserved

29267-e

Rev. 7/17

FACTS

WHAT DOES UMASSFIVE COLLEGE FEDERAL CREDIT UNION DO
WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law gives
consumers the right to limit some but not all sharing. Federal law also requires us to tell you how we
collect, share, and protect your personal information. Please read this notice carefully to understand
what we do.

What?

The types of personal information we collect and share depend on the product or service you have
with us. This information can include:
Social Security number and account balances
checking account information and credit scores
payment history and transaction history
When you are no longer our member, we continue to share your information as described in this
notice.

How?

All financial companies need to share members’ personal information to run their everyday
business. In the section below, we list the reasons financial companies can share their members’
personal information; the reasons UMassFive College Federal Credit Union chooses to share; and
whether you can limit this sharing.

Reasons we can share your personal information

Does UMassFive College
Federal Credit Union
share?
Yes

Can you limit this sharing?

Yes

No

Yes

No

For our affiliates’ everyday business purposes –
information about your transactions and experiences
For our affiliates’ everyday business purposes –
information about your creditworthiness
For our affiliates to market to you

Yes

No

No

We don’t share

No

We don’t share

For nonaffiliates to market to you

No

We don’t share

For our everyday business purposes –
such as to process your transactions, maintain your
account(s), respond to court orders and legal
investigations, or to report to credit bureaus
For our marketing purposes –
to offer our products and services to you
For joint marketing with other financial companies

Questions?

No

Call toll-free (800) 852-5886 or go to www.UMassFive.coop

02005663-DXPS0-1-C-071317 (DXPS01-E)

Page 2

What we do
How does UMassFive College
Federal Credit Union protect my
personal information?
How does UMassFive College
Federal Credit Union collect my
personal information?

Why can’t I limit all sharing?

To protect your personal information from unauthorized access and use, we use
security measures that comply with federal law. These measures include computer
safeguards and secured files and buildings.
We collect your personal information, for example, when you
open an account or use your credit or debit card
show your government-issued ID or apply for financing
make deposits or withdrawals from your account
We also collect your personal information from others, such as credit bureaus,
affiliates, or other companies.
Federal law gives you the right to limit only
sharing for affiliates’ everyday business purposes – information about your
creditworthiness
affiliates from using your information to market to you
sharing for nonaffiliates to market to you
State law and individual companies may give you additional rights to limit sharing.

Definitions
Affiliates

Nonaffiliates

Joint Marketing

Companies related by common ownership or control. They can be financial and
nonfinancial companies.
Our affiliates include financial companies, such as Member Advantage Mortgage.
Companies not related by common ownership or control. They can be financial and
nonfinancial companies.
UMassFive College Federal Credit Union does not share with our nonaffiliates so
they can market to you.
A formal agreement between nonaffiliated financial companies that together market
financial products or services to you.
Our joint marketing partners include investment companies and insurance
companies.

Other important information

MEMBERSHIP AND ACCOUNT AGREEMENT
This Agreement covers your rights and responsibilities concerning your accounts and the rights and responsibilities of the Credit Union
providing this Agreement (Credit Union). In this Agreement, the words "you," "your," and "yours" mean anyone who signs an Account
Card, Account Change Card, or any other account opening document (Account Card), or for whom membership and/or service
requests are approved through the Credit Union's online application and authentication process. The words "we," "us," and "our"
mean the Credit Union. The word "account" means any one (1) or more share or other accounts you have with the Credit Union.
Your account type(s) and ownership features are designated by you on your Account Card or through the Credit Union's online
application and authentication process. By signing an Account Card or authenticating your request, each of you, jointly and severally,
agree to the terms and conditions in this Agreement, and any Account Card, Funds Availability Policy Disclosure, Truth-in-Savings
Disclosure, Electronic Fund Transfers Agreement and Disclosure, Privacy Disclosure, or Account Receipt accompanying this
Agreement, the Credit Union's bylaws and policies, and any amendments to these documents from time to time that collectively
govern your membership and accounts.
1. MEMBERSHIP ELIGIBILITY - To join the Credit Union, you must meet the membership requirements, including purchase and
maintenance of the minimum required share(s) ("membership share") as set forth in the Credit Union's bylaws. You authorize us to
check your account, credit and employment history, and obtain reports from third parties, including credit reporting agencies, to verify
your eligibility for the accounts and services you request.
2. INDIVIDUAL ACCOUNTS - An individual account is an account owned by one (1) member (individual, corporation, partnership,
trust, or other organization) qualified for credit union membership. If the account owner dies, the interest passes, subject to applicable
law, to the account owner's estate or Payable on Death (POD) beneficiary/payee or trust beneficiary, subject to other provisions of this
Agreement governing our protection for honoring transfer and withdrawal requests of an owner or owner's agent prior to notice of an
owner's death, and to any security interest or pledge granted by the account owner, and subject to our statutory lien rights.
3. JOINT ACCOUNTS - A joint account is an account owned by two (2) or more persons.
a. Rights of Survivorship. Unless otherwise stated on the Account Card or documented through the Credit Union's online application
and authentication process, a joint account includes rights of survivorship. This means that when one (1) owner dies, all sums in the
account will pass to the surviving owner(s). For a joint account without rights of survivorship, the deceased owner's interest passes to
his or her estate. A surviving owner's interest is subject to the Credit Union's statutory lien for the deceased owner's obligations and
to any security interest or pledge granted by a deceased owner, even if a surviving owner did not consent to it.
b. Control of Joint Accounts. Any owner is authorized and deemed to act for any other owner(s) and may instruct us regarding
transactions and other account matters. Each owner guarantees the signature or authenticated request of any other owner(s). Any
owner may withdraw or transfer funds, pledge to us all or any part of the shares, or stop payment on items without the consent of the
other owner(s). We have no duty to notify any owner(s) about any transaction. We reserve the right to require written consent of all
owners for any change to or termination of an account. If we receive written notice of a dispute between owners or inconsistent
instructions from them, we may suspend or terminate the account and require a court order or written consent from all owners in
order to act.
c. Joint Account Owner Liability. If an item deposited in a joint account is returned unpaid, a joint account is overdrawn, or if we do
not receive final payment on a transaction, the owners, jointly and severally, are liable to us for the amount of the returned item,
overdraft, or unpaid amount and any charges, regardless of who initiated or benefited from the transaction. If any account owner is
indebted to us, we may enforce our rights against any account of the indebted owner, including all funds in the joint account,
regardless of who contributed the funds.
4. POD/TRUST ACCOUNT DESIGNATIONS - A Payable on Death (POD) account or trust account designation is an instruction to the
Credit Union that an individual or joint account so designated is payable to the owner(s) during his, her, or their lifetimes and, when the
last account owner dies, is payable to all surviving POD or trust beneficiaries/payees. Upon the death of the last account owner, if
there is more than one (1) surviving beneficiary/payee, the account is owned jointly by such beneficiaries/payees without rights of
survivorship. Any POD or trust beneficiary/payee designation shall not apply to Individual Retirement Accounts (IRAs). We are not
obligated to notify any beneficiary/payee of the existence of any account nor the vesting of the beneficiary/payee's interest in any
account, except as otherwise provided by law. This paragraph does not apply to an account held on behalf of or in the name of a trust.
5. ACCOUNTS FOR MINORS - We may require any account established by a minor to be a joint account with an owner who has
reached the age of majority under state law and who shall be jointly and severally liable to us for any returned item, overdraft, or
unpaid charges or amounts on such account. We may pay funds directly to the minor without regard to his or her minority. Unless a
guardian or parent is an account owner, the guardian or parent shall not have any account access rights. We have no duty to inquire
about the use or purpose of any transaction. We will not change the account status when the minor reaches the age of majority unless
the change is authorized in writing by all account owners.
6. UNIFORM TRANSFERS TO MINORS ACCOUNT - A Uniform Transfers to Minors Account (UTMA) is an individual account created
by a custodian who deposits funds as an irrevocable gift to a minor. The minor to whom the gift is made is the beneficiary of the
custodial property in the account. The custodian has possession and control of the account for the exclusive right and benefit of the
minor and, barring a court order otherwise, is the only party authorized to make deposits, withdrawals, or close the account. We have
no duty to inquire about the use or purpose of any transaction. If the custodian dies, we may suspend the account until we receive
instructions from any person authorized by law to withdraw funds or a court order authorizing withdrawals.
7. AGENCY DESIGNATION ON AN ACCOUNT - An agency designation on an account is an instruction to us that the owner
authorizes another person to make transactions as agent for the account owner regarding the accounts designated. An agent has no
ownership interest in the account(s) or credit union voting rights. We have no duty to inquire about the use or purpose of any
transaction made by the agent.

CUNA Mutual Group 1993, 95, 96, 99, 2000, 03-07, 09, 10, 13 All Rights Reserved

D10047-e

8. DEPOSIT OF FUNDS REQUIREMENTS - Funds may be deposited to any account, in any manner approved by the Credit Union in
accordance with the requirements set forth in the Truth-in-Savings Disclosure. Deposits made by mail, at night depositories, or at
unstaffed facilities are not our responsibility until we receive them. We reserve the right to refuse or to return any deposit.
a. Endorsements. We may accept transfers, checks, drafts, and other items for deposit into any of your accounts if they are made
payable to, or to the order of, one (1) or more account owners even if they are not endorsed by all payees. You authorize us to supply
missing endorsements of any owners if we choose. If a check, draft, or item that is payable to two (2) or more persons is ambiguous
as to whether it is payable to either or both, we may process the check, draft, or item as though it is payable to either person. If an
insurance, government, or other check or draft requires an endorsement, we may require endorsement as set forth on the item.
Endorsements must be made on the back of the check or draft within 1½ inches of the top edge, although we may accept
endorsements outside this space. However, any loss we incur from a delay or processing error resulting from an irregular endorsement
or other markings by you or any prior endorser will be your responsibility.
b. Collection of Items. We act only as your agent and we are not responsible for handling items for deposit or collection beyond the
exercise of ordinary care. We are not liable for the negligence of any correspondent or for loss in transit, and each correspondent will
only be liable for its own negligence. We may send any item for collection. Items drawn on an institution located outside the United
States are handled on a collection basis only. You waive any notice of nonpayment, dishonor, or protest regarding items we purchase
or receive for credit or collection to your account. We reserve the right to pursue collection of previously dishonored items at any time,
including giving a payor financial institution extra time beyond any midnight deadline limits.
c. Restrictive Legends. Some checks and drafts contain restrictive legends or similar limitations on the front of the item. Examples of
restrictive legends include "two signatures required," "void after 60 days," and "not valid over $500.00." We are not liable for
payment of any check or draft contrary to a restrictive legend or other limitation contained in or on the item unless we have specifically
agreed in writing to the restriction or limitation.
d. Final Payment. All items or Automated Clearing House (ACH) transfers credited to your account are provisional until we receive
final payment. If final payment is not received, we may charge your account for the amount of such items or ACH transfers and
impose a return item charge on your account. Any collection fees we incur may be charged to your account. We reserve the right to
refuse or return any item or funds transfer.
e. Direct Deposits. We may offer preauthorized deposits (e.g., payroll checks, Social Security or retirement checks, or other
government checks) or preauthorized transfers from other accounts. You must authorize direct deposits or preauthorized transfers by
filling out a separate form. You must notify us at least 30 days in advance to cancel or change a direct deposit or transfer option. If
your account is overdrawn, you authorize us to deduct the amount your account is overdrawn from any deposit, including deposits of
government payments or benefits. If we are required to reimburse the U.S. Government for any benefit payment directly deposited into
your account, we may deduct the amount returned from any of your accounts, unless prohibited by law.
f. Crediting of Deposits. Deposits made after the deposit cutoff time and deposits made on holidays or days other than our business
days will be credited to your account on the next business day.
9. ACCOUNT ACCESS a. Authorized Signature. Your signature on the Account Card, or authentication and approval of your account, authorizes your
account access. We will not be liable for refusing to honor any item or instruction if we believe the signature is not genuine. If you
have authorized the use of a facsimile signature, we may honor any check or draft that appears to bear your facsimile signature, even
if it was made by an unauthorized person. You authorize us to honor transactions initiated by a third person to whom you have given
your account information, even if you do not authorize a particular transaction.
b. Access Options. You may withdraw or transfer funds from your account(s) in any manner we permit (e.g., at an automated teller
machine, in person, by mail, Internet access, automatic transfer, or telephone, as applicable). We may return as unpaid any check or
draft drawn on a form we do not provide, and you are responsible for any loss we incur handling such a check or draft. We have the
right to review and approve any form of power of attorney and may restrict account withdrawals or transfers. We may refuse to honor
a power of attorney if our refusal is conducted in accordance with applicable state law.
c. Credit Union Examination. We may disregard any information on any check or draft other than the signature of the drawer, the
amount, and any magnetic encoding. You agree that we do not fail to exercise ordinary care in paying an item solely because our
procedures do not provide for sight examination of items.
10. FUND TRANSFERS - Except as amended by this Agreement, electronic fund transfers we permit that are subject to Article 4A of
the Uniform Commercial Code will be subject to such provisions of the Uniform Commercial Code as enacted by the state where the
main office of the Credit Union is located. We may execute certain requests for an electronic fund transfer by Fedwire. Fedwire
transactions are subject to Federal Reserve Board Regulation J. You may order an electronic fund transfer to or from your account. We
will debit your account for the amount of the electronic fund transfer and will charge your account for any fees related to the transfer.
Unless we agree otherwise in writing, we reserve the right to refuse to execute any order to transfer funds to or from your account.
We are not obligated to execute any order to transfer funds out of your account if the amount of the requested transfer plus applicable
fees exceeds the available funds in your account. We are not liable for errors, delays, interruptions, or transmission failures caused by
third parties or circumstances beyond our control, including mechanical, electronic, or equipment failure. We will not provide you with
next day notice of ACH transfers, wire transfers, and other electronic payments credited to your account. You will receive notice of
such credits on your account statements. You may contact us to determine whether a payment has been received. If we fail to
properly execute a payment order, and such action results in a delay in payment to you, we will pay you dividends or interest for the
period of delay as required by applicable law. The dividends or interest paid to you will be based on the lowest nominal dividend or
interest rate we were paying on any account during that period. Payment orders we accept will be executed within a reasonable time
of receipt but may not necessarily be executed on the date they are received. Cutoff times may apply to the receipt, execution and
processing of fund transfers, payment orders, cancellations, and amendments. If a request for a fund transfer, payment order,
cancellation, or amendment is received after a cutoff time, it may be treated as having been received on the next fund transfer
business day. Information about any cutoff times is available upon request. From time to time, we may need to suspend processing of
a transaction for greater scrutiny or verification in accordance with applicable law, and this action may affect settlement or availability
of the transaction. When you initiate a wire transfer, you may identify the recipient and any financial institution by name and by
account or identifying number. The Credit Union and any other financial institutions facilitating the transfer may rely strictly on the
account or identifying number, even if the number identifies a different person or financial institution. Any account owner may amend
or cancel a payment order, even if that person did not initiate the order. We may refuse any request to amend or cancel a payment
order that we believe will expose the Credit Union to liability or loss. Any request that we accept to amend or cancel a payment order

D10047-e

will be processed within a reasonable time after it is received. You agree to hold us harmless from and indemnify us for all losses and
expenses resulting from any actual or attempted amendment or cancellation of a payment order. We may require you to follow a
security procedure to execute a payment order or certain electronic fund transfer transactions. We will notify you of any such security
procedures. Unless we permit you to establish a different security procedure, you agree that the security procedures contained in the
Credit Union's policies, of which we have notified you, are commercially reasonable verification of payment orders and other electronic
fund transfers. If we permit you to establish a different security procedure, you agree that procedure is a commercially reasonable
method of verifying electronic funds transfers. If we conduct a remittance transfer(s) on your behalf acting as a remittance transfer
provider, such transactions will be governed by 12 C.F.R. part 1005, subpart B-Requirements for remittance transfers. A "remittance
transfer" is an electronic transfer of funds of more than $15.00 which is requested by a sender and sent to a designated recipient in a
foreign country by a remittance transfer provider. Terms applicable to such transactions may vary from those disclosed herein and will
be disclosed to you at the time such services are requested and rendered in accordance with applicable law.
11. ACCOUNT RATES AND FEES - We pay account earnings and assess fees against your account as set forth in the Truth-inSavings Disclosure and Schedule of Fees and Charges. We may change the Truth-in-Savings Disclosure or Schedule of Fees and
Charges at any time and will notify you as required by law.
12. TRANSACTION LIMITATIONS a. Withdrawal Restrictions. We will pay checks or drafts, permit withdrawals, and make transfers from available funds in your
account. The availability of funds in your account may be delayed as described in our Funds Availability Policy Disclosure. We may
also pay checks or drafts, permit withdrawals, and make transfers from your account from insufficient available funds if you have
established an overdraft protection plan or, if you do not have such a plan with us, in accordance with our overdraft payment policy.
We may refuse to allow a withdrawal in some situations and will advise you accordingly if: (1) there is a dispute between account
owners (unless a court has ordered the Credit Union to allow the withdrawal); (2) a legal garnishment or attachment is served; (3) the
account secures any obligation to us; (4) required documentation has not been presented; or (5) you fail to repay a credit union loan
on time. We may require you to give written notice of seven (7) to 60 days before any intended withdrawals.
b. Transfer Limitations. We may limit the dollar amount or the number of transfers from your account. Please consult your
Truth-in-Savings Disclosure or your Electronic Fund Transfers Agreement and Disclosure.
13. CERTIFICATE ACCOUNTS - Any time deposit, term share, share certificate, or certificate of deposit account allowed by state law
(certificate account), whichever we offer, is subject to the terms of this Agreement, the Truth-in-Savings Disclosure, and the Account
Receipt for each account, the terms of which are incorporated herein by reference.
14. OVERDRAFTS a. Payment of Overdrafts. If, on any day, the available funds in your share or deposit account are not sufficient to pay the full amount
of a check, draft, transaction, or other item, plus any applicable fee, that is posted to your account, we may return the item or pay it,
as described below. The Credit Union's determination of an insufficient available account balance may be made at any time between
presentation and the Credit Union's midnight deadline with only one review of the account required. We do not have to notify you if
your account does not have sufficient available funds in order to pay an item. Your account may be subject to a charge for each item
regardless of whether we pay or return the item.
If we offer standard overdraft services, this service allows us to authorize payment for the following types of transactions regardless
of whether your share or deposit account has sufficient funds: (1) share drafts/checks and other transactions made using your
checking account, except as otherwise described below; (2) automatic bill payments; (3) ACH transactions. For ATM and one-time
debit card transactions, you must affirmatively consent to such coverage. Without your consent, the Credit Union may not authorize
and pay an ATM or one-time debit card transaction that will result in insufficient funds in your account. If you have established a
service linking your share or deposit account with other individual or joint accounts, you authorize us to transfer funds from other
another account of yours to cover an insufficient item, including transfers from a share or deposit account, an overdraft line-of-credit
account, or other account you so designate. Services and fees for these transactions are shown in the document the Credit Union
uses to capture your affirmative consent and the Schedule of Fees and Charges.
Except as otherwise agreed in writing, if we exercise our right to use our discretion to pay such items that result in an insufficiency of
funds in your account, we do not agree to pay them in the future and may discontinue coverage at any time without notice. If we pay
these items or impose a fee that results in insufficient funds in your account, you agree to pay the insufficient amount, including the
fee assessed by us, in accordance with our standard overdraft services or any other service you may have authorized with us, or if
you do not have such protections with us, in accordance with any overdraft payment policy we have, as applicable.
b. Order of Payments. Checks, drafts, transactions, and other items may not be processed in the order that you make them or in the
order that we receive them. We may, at our discretion, pay a check, draft, or item, and execute other transactions on your account in
any order we choose. The order in which we process checks, drafts, or items, and execute other transactions on your account may
affect the total amount of overdraft fees that may be charged to your account. Please contact us if you have questions about how we
pay checks or drafts and process transfers and withdrawals.
15. POSTDATED AND STALEDATED CHECKS OR DRAFTS - You agree not to issue any check or draft that is payable on a future date
(postdated). If you do issue a check or draft that is postdated and we pay it before that date, you agree that we shall have no liability
to you for such payment. You agree not to deposit checks, drafts, or other items before they are properly payable. We are not
obligated to pay any check or draft drawn on your account that is presented more than six (6) months past its date.
16. STOP PAYMENT ORDERS a. Stop Payment Order Request. Any owner may request a stop payment order on any check or draft drawn on the owner's account.
To be binding, the order must be in writing, dated and signed, and must accurately describe the check or draft, including the exact
account number, the check or draft number, and the exact amount of the check or draft. This exact information is necessary for the
Credit Union's computer to identify the check or draft. If we receive incorrect or incomplete information, we will not be responsible for
failing to stop payment on the check or draft. In addition, we must receive sufficient advance notice of the stop payment order to
allow us a reasonable opportunity to act on it. If we recredit your account after paying a check or draft over a valid and timely stop
payment order, you agree to sign a statement describing the dispute with the payee, to assign to us all of your rights against the
payee or other holders of the check or draft, and to assist us in any legal action.

D10047-e

b. Duration of Order. Oral stop payment orders for check or drafts will lapse within 14 calendar days unless confirmed in writing
within that time. Written stop payment orders for checks or drafts are effective for six (6) months and may be renewed for additional
six (6) month periods by requesting in writing that the stop payment order be renewed within a period during which the stop payment
order is effective. We are not required to notify you when a stop payment order expires.
c. Liability. Fees for stop payment orders are set forth in the Truth-in-Savings Disclosure or Schedule of Fees and Charges. You may
not stop payment on any certified check, cashier's check, teller's check, or any other check, draft, or payment guaranteed by us.
Although payment of an item may be stopped, you may remain liable to any item holder, including us. You agree to indemnify and hold
the Credit Union harmless from all costs, including attorney's fees, damages, or claims related to our refusing payment of an item,
including claims of any joint account owner, payee, or endorsee in failing to stop payment of an item as a result of incorrect
information provided by you.
17. CREDIT UNION LIABILITY - If we do not properly complete a transaction according to this Agreement, we will be liable for your
losses or damages not to exceed the amount of the transaction, except as otherwise provided by law. We will not be liable if: (1) your
account contains insufficient funds for the transaction; (2) circumstances beyond our control prevent the transaction; (3) your loss is
caused by your or another financial institution's negligence; or (4) your account funds are subject to legal process or other claim. We
will not be liable for consequential damages, except liability for wrongful dishonor. We exercise ordinary care if our actions or
nonactions are consistent with applicable state law, Federal Reserve regulations and operating letters, clearinghouse rules, and general
financial institution practices followed in the area we serve. You grant us the right, in making payments of deposited funds, to rely
exclusively on the form of the account and the terms of this Agreement. Any conflict regarding what you and our employees say or
write will be resolved by reference to this Agreement.
18. CHECKS OR DRAFTS PRESENTED FOR PAYMENT IN PERSON - We may refuse to accept any check or draft drawn on your
account that is presented for payment in person. Such refusal shall not constitute a wrongful dishonor of the check or draft, and we
shall have no liability for refusing payment. If we agree to cash a check or draft that is presented for payment in person, we may
require the presenter to pay a fee. Any applicable check or draft cashing fees are stated in the Schedule of Fees and Charges.
19. REMOTELY CREATED CHECKS OR DRAFTS - For purposes of this paragraph, "account" means a transaction account, credit
account, or any other account on which checks or drafts may be drawn. A remotely created check or draft is a check or draft created
by someone other than the person on whose account the check or draft is drawn. A remotely created check or draft is generally
created by a third party payee as authorized by the owner of the account on which the check or draft is drawn. Authorization is
usually made over the telephone or through on-line communication. The owner of the account does not sign a remotely created check
or draft. In place of the owner's signature, the remotely created check or draft usually bears a statement that the owner authorized the
check or draft or bears the owner's printed or typed name. If you authorize a third party to draw a remotely created check or draft
against your account, you may not later revoke or change your authorization. It is your responsibility to resolve any authorization
issues directly with the third party. We are not required to credit your account and may charge against your account any remotely
created check or draft for which the third party has proof of your authorization.
20. PLEDGE/STATUTORY LIEN - Unless prohibited by law, you pledge and grant as security for all obligations you may have now or in
the future, except obligations secured by your principal residence, all shares and dividends and all deposits and interest, if any, in all
accounts you have with us now and in the future. If you pledge a specific dollar amount in your account(s) for a loan, we will freeze
the funds in your account(s) to the extent of the outstanding balance of the loan or, if greater, the amount of the pledge if the loan is a
revolving loan. Otherwise, funds in your pledged account(s) may be withdrawn unless you are in default. Federal or state law
(depending upon whether we have a federal or state charter) gives us a lien on all shares and dividends and all deposits and interest, if
any, in accounts you have with us now and in the future. Except as limited by federal or state law, the statutory lien gives us the right
to apply the balance of all your accounts to any obligation on which you are in default. After you are in default, we may exercise our
statutory lien rights without further notice to you.
Your pledge and our statutory lien rights will allow us to apply the funds in your account(s) to what you owe when you are in default,
except as limited by federal or state law. If we do not apply the funds in your account(s) to satisfy your obligation, we may place an
administrative freeze on your account(s) in order to protect our statutory lien rights and may apply the funds in your account(s) to the
amount you owe us at a later time. The statutory lien and your pledge do not apply to any Individual Retirement Account or any other
account that would lose special tax treatment under federal or state law if given as security. By not enforcing our right to apply funds
in your account to your obligations that are in default, we do not waive our right to enforce these rights at a later time.
21. LEGAL PROCESS - If any legal action is brought against your account, we may pay out funds according to the terms of the action
or refuse any payout until the dispute is resolved, as permitted by law. Any expenses or attorney fees we incur responding to legal
process may be charged against your account without notice, unless prohibited by law. Any legal process against your account is
subject to our lien and security interest.
22. ACCOUNT INFORMATION - Upon request, we will give you the name and address of each agency from which we obtain a credit
report regarding your account. We agree not to disclose account information to third parties except when: (1) it is necessary to
complete a transaction; (2) the third party seeks to verify the existence or condition of your account in accordance with applicable law;
(3) such disclosure complies with the law or a government agency or court order; or (4) you give us written permission.
23. NOTICES a. Name or Address Changes. You are responsible for notifying us of any name or address change. The Credit Union is only required
to attempt to communicate with you at the most recent address you have provided to us. We may require all name and address
changes to be provided in writing. If we attempt to locate you, we may impose a service fee as set forth in the Truth-in-Savings
Disclosure or Schedule of Fees and Charges.
b. Notice of Amendments. Except as prohibited by applicable law, we may change the terms of this Agreement at any time. We will
notify you of any change in terms, rates, or fees as required by law. We reserve the right to waive any terms of this Agreement. Any
such waiver shall not affect our right to future enforcement.
c. Effect of Notice. Any written notice you give us is effective when we receive it. Any written notice we give to you is effective
when it is deposited in the U.S. mail, postage prepaid, and addressed to you at your statement mailing address. Notice to any account
owner is considered notice to all account owners.
d. Electronic Notices. If you have agreed to receive notices electronically, we may send you notices electronically and discontinue
mailing paper notices to you until you notify us that you wish to reinstate receiving paper notices.

D10047-e

24. TAXPAYER IDENTIFICATION NUMBER AND BACKUP WITHHOLDING - Your failure to furnish a correct Taxpayer Identification
Number (TIN) or meet other requirements may result in backup withholding. If your account is subject to backup withholding, we must
withhold and pay to the Internal Revenue Service (IRS) a percentage of dividends, interest, and certain other payments. If you fail to
provide your TIN, we may suspend opening your account.
25. STATEMENTS a. Contents. If we provide a periodic statement for your account, you will receive a periodic statement of transactions and activity on
your account during the statement period as required by applicable law. If a periodic statement is provided, you agree that only one (1)
statement is necessary for joint accounts. For share draft or checking accounts, you understand and agree that, unless you request
otherwise, your original check or draft, when paid, becomes property of the Credit Union and may not be returned to you, but copies
of the check or draft may be retained by us or by payable-through financial institutions and may be made available upon your request.
You understand and agree that statements are made available to you on the date they are sent to you. You also understand and agree
that checks, drafts, or copies thereof are made available to you on the date the statement is sent to you, even if the checks or drafts
do not accompany the statement.
b. Examination. You are responsible for promptly examining each statement upon receiving it and reporting any irregularities to us. If
you fail to report any irregularities such as forged, altered, unauthorized, unsigned, or otherwise fraudulent items drawn on your
account, erroneous payments or transactions, or other discrepancies reflected on your statement within 33 days of the date we sent
the statement to you, we will not be responsible for your loss. We also will not be liable for any items that are forged or altered in a
manner not detectable by a reasonable person, including the unauthorized use of a facsimile signature machine.
c. Notice to Credit Union. You agree that the Credit Union's retention of checks or drafts does not alter or waive your responsibility to
examine your statements or the time limit for notifying us of any errors. The statement will be considered correct for all purposes, and
we will not be liable for any payment made or charge to your account unless you notify us in writing within the above time limit for
notifying us of any errors. If you fail to receive a periodic statement, you agree to notify us within 14 days of the time you regularly
receive a statement.
26. INACTIVE ACCOUNTS - If your account falls below any applicable minimum balance and you have not made any transactions over
a period specified in the Truth-in-Savings Disclosure or Schedule of Fees and Charges, we may classify your account as inactive or
dormant. Unless prohibited by applicable law, we may charge a service fee, as set forth in the Truth-in-Savings Disclosure or Schedule
of Fees and Charges, for processing your inactive account. If we impose a fee, we will notify you, as required by law, at your last
known address. You authorize us to transfer funds from another account of yours to cover any service fees, if applicable. To the
extent allowed by law, we reserve the right to transfer the account funds to an account payable and to suspend any further account
statements. If a deposit or withdrawal has not been made on the account and we have had no other sufficient contact with you within
the period specified by state law, the account will be presumed to be abandoned. Funds in abandoned accounts will be reported and
remitted in accordance with state law. Once funds have been turned over to the state, we have no further liability to you for such
funds, and if you choose to reclaim such funds, you must apply to the appropriate state agency.
27. SPECIAL ACCOUNT INSTRUCTIONS - You may request that we facilitate certain trust, will, or court-ordered account
arrangements. However, because we do not give legal advice, we cannot counsel you as to which account arrangement most
appropriately meets the specific requirements of your trust, will, or court order. If you ask us to follow any instructions that we believe
might expose us to claims, lawsuits, expenses, liabilities, or damages, whether directly or indirectly, we may refuse to follow your
instructions or may require you to indemnify us or post a bond or provide us with other protection. We may require that account
changes requested by you, or any account owner, such as adding or closing an account or service, be evidenced by a signed Account
Change Card or other document which evidences a change to an account and accepted by us.
28. TERMINATION OF ACCOUNT - We may terminate your account at any time without notice to you or may require you to close your
account and apply for a new account if: (1) there is a change in owners or authorized signers; (2) there has been a forgery or fraud
reported or committed involving your account; (3) there is a dispute as to the ownership of the account or of the funds in the account;
(4) any checks or drafts are lost or stolen; (5) there are excessive returned unpaid items not covered by an overdraft protection plan;
(6) there has been any misrepresentation or any other abuse of any of your accounts; or (7) we reasonably deem it necessary to
prevent a loss to us. You may terminate an individual account by giving written notice. We reserve the right to require the consent of
all owners to terminate a joint account. We are not responsible for payment of any check, draft, withdrawal, transaction, or other item
after your account is terminated; however, if we pay an item after termination, you agree to reimburse us.
29. TERMINATION OF MEMBERSHIP - You may terminate your membership by giving us written notice or by withdrawing your
minimum required membership share(s), if any, and closing all your accounts. You may be denied services for causing a loss to the
Credit Union, or you may be expelled for any reason as allowed by applicable law.
30. DEATH OF ACCOUNT OWNER - We may continue to honor all transfer orders, withdrawals, deposits, and other transactions on an
account until we know of a member's death. Once we know of a member's death, we may pay checks or drafts or honor other
payments or transfer orders authorized by the deceased member for a period of ten (10) days after that date unless we receive
instructions from any person claiming an interest in the account to stop payment on the checks, drafts, or other items. We may require
anyone claiming a deceased owner's account funds to indemnify us for any losses resulting from our honoring that claim. This
Agreement will be binding upon any heirs or legal representatives of any account owner.
31. UNLAWFUL INTERNET GAMBLING AND OTHER ILLEGAL ACTIVITIES - You agree that you are not engaged in unlawful Internet
gambling or any other illegal activity. You agree that you will not use any of your accounts, access devices or services for unlawful
Internet gambling or other illegal activities. We may terminate your account relationship if you engage in unlawful Internet gambling or
other illegal activities.
32. SEVERABILITY - If a court holds any portion of this Agreement to be invalid or unenforceable, the remainder of this Agreement
shall not be invalid or unenforceable and will continue in full force and effect. All headings are intended for reference only and are not
to be construed as part of the Agreement.
33. ENFORCEMENT - You are liable to us for any losses, costs, or expenses we incur resulting from your failure to follow this
Agreement. You authorize us to deduct any such losses, costs, or expenses from your account without prior notice to you. If we bring
a legal action to collect any amount due under or to enforce this Agreement, we shall be entitled, subject to applicable law, to
payment of reasonable attorney's fees and costs, including fees on any appeal, bankruptcy proceedings, and any postjudgment
collection actions.

D10047-e

34. GOVERNING LAW - This Agreement is governed by the Credit Union's bylaws, federal laws and regulations, the laws, including
applicable principles of contract law, and regulations of the state in which the Credit Union's main office is located, and local
clearinghouse rules, as amended from time to time. As permitted by applicable law, you agree that any legal action regarding this
Agreement shall be brought in the county in which the Credit Union is located.
35. NEGATIVE INFORMATION NOTICE - We may report information about your loan, share, or deposit accounts to credit bureaus. Late
payments, missed payments, or other defaults on your accounts may be reflected in your credit report.

D10047-e

FUNDS AVAILABILITY POLICY DISCLOSURE
This Disclosure describes your ability to withdraw funds from any account at UMassFive College Federal Credit Union.
1. GENERAL POLICY — Our policy is to make funds from your cash and check deposits available to you on the same
business day that we receive your deposit. Electronic direct deposits will be available on the day we receive the deposit.
Once they are available, you can withdraw the funds in cash and we will use the funds to pay checks that you have
written. For determining the availability of your deposits, every day is a business day, except Saturdays, Sundays, and
federal holidays. If you make a deposit before 6:00 p.m. at a staffed facility or before 3:30 p.m. at an ATM that we own or
operate on a business day that we are open, we will consider that day to be the day of your deposit. However, if you make
a deposit after our cutoff hour or on a day we are not open, we will consider that the deposit was made on the next
business day we are open.
2. RESERVATION OF RIGHT TO HOLD — In some cases, we will not make all of the funds that you deposit by check
available to you on the same business day that we receive your deposit. Funds may not be available until the second
business day after the day of your deposit. However, the first $200.00 of your deposit will be available on the first
business day after the day of your deposit. If we are not going to make all of the funds from your deposit available on the
same business day, we will notify you at the time you make your deposit. We will also tell you when the funds will be
available. If your deposit is not made directly to one of our employees or if we decide to take this action after you have left
the premises, we will mail you the notice by the next business day after we receive your deposit. If you will need the funds
from a deposit right away, you should ask us when the funds will be available.
3. HOLDS ON OTHER FUNDS — If we cash a check for you that is drawn on another financial institution, we may
withhold the availability of a corresponding amount of funds that are already in your account. Those funds will be available
at the time funds from the check we cashed would have been available if you had deposited it. If we accept for deposit a
check that is drawn on another financial institution, we may make funds from the deposit available for withdrawal
immediately but delay your availability to withdraw a corresponding amount of funds that you have on deposit in another
account with us. The funds in the other account would then not be available for withdrawal until the time periods that are
described elsewhere in this Disclosure for the type of check that you deposited.
4. LONGER DELAYS MAY APPLY — We may delay your ability to withdraw funds deposited by check into your
account an additional number of days for these reasons:
-

We believe a check you deposit will not be paid.
You deposit checks totaling more than $5,000.00 on any one (1) day.
You redeposit a check that has been returned unpaid.
You have overdrawn your account repeatedly in the last six (6) months.
There is an emergency, such as failure of communications or computer equipment.

We will notify you if we delay your ability to withdraw funds for any of these reasons and we will tell you when the funds
will be available. They will generally be available no later than the seventh business day after the day of your deposit.
5. SPECIAL RULES FOR NEW ACCOUNTS — If you are a new member, the following special rules will apply during
the first 30 days your account is open.
Funds from electronic direct deposits to your account will be available on the day we receive the deposit. Funds from
deposits of cash, wire transfers, and the first $5,000.00 of a day’s total deposits of cashier’s, certified, teller’s, traveler’s,
and federal, state, and local government checks will be available on the same business day that we receive your deposit if
the deposit meets certain conditions. For example, the checks must be payable to you. The excess over $5,000.00 will be
available on the ninth business day after the day of your deposit. If your deposit of these checks (other than a U.S.
Treasury check) is not made in person to one of our employees, the first $5,000.00 will not be available until the second
business day after the day of your deposit. Funds from all other check deposits will be available on the seventh business
day after the day of your deposit.
6. FOREIGN CHECKS — Checks drawn on financial institutions located outside the U.S. (foreign checks) cannot be
processed the same as checks drawn on U.S. financial institutions. Foreign checks are exempt from the policies outlined
in this Disclosure. Generally, the availability of funds for deposits of foreign checks will be delayed for the time it takes us
to collect the funds from the financial institution upon which it is drawn.

©CUNA Mutual Group 2008, 10, 11 All Rights Reserved

02005663-11452-P-1-070717 (114521)-e

ELECTRONIC FUND TRANSFERS AGREEMENT AND DISCLOSURE
This Electronic Fund Transfers Agreement and Disclosure is the contract which covers your and our rights and responsibilities
concerning the electronic fund transfers (EFT) services offered to you by UMassFIVE College Federal Credit Union (“Credit
Union”). In this Agreement, the words “you,” “your,” and “yours” mean those who sign the application or account card as
applicants, joint owners, or any authorized users. The words “we,” “us,” and “our” mean the Credit Union. The word “account”
means any one (1) or more savings and checking accounts you have with the Credit Union. Electronic fund transfers are
electronically initiated transfers of money from your account through the EFT services described below. By signing an
application or account card for EFT services, signing your card, or using any service, each of you, jointly and severally, agree
to the terms and conditions in this Agreement and any amendments for the EFT services offered. Furthermore, electronic fund
transfers that meet the definition of remittance transfers are governed by 12 C.F.R. part 1005, subpart B—Requirements for
remittance transfers, and consequently, terms of this agreement may vary for those types of transactions. A “remittance
transfer” is an electronic transfer of funds of more than $15.00 which is requested by a sender and sent to a designated
recipient in a foreign country by a remittance transfer provider. Terms applicable to such transactions may vary from those
disclosed herein and will be disclosed to you at the time such services are requested and rendered in accordance with
applicable law.
1.

EFT SERVICES — If approved, you may conduct any one (1) or more of the EFT services offered by the Credit Union.

a. Debit Card. If approved, you may use your Visa® card to purchase goods and services from participating merchants.
However, you may not use your card to initiate any type of gambling transaction. If you wish to pay for goods or services over
the Internet, you may be required to provide card number security information before you will be permitted to complete the
transaction. You agree that you will not use your card for any transaction that is illegal under applicable federal, state, or local
law. Funds to cover your card purchases will be deducted from your checking account. For ATM and one-time debit card
transactions, you must consent to the Credit Union’s overdraft protection plan in order for the transaction amount to be
covered under the plan. Without your consent, the Credit Union may not authorize and pay an overdraft resulting from these
types of transactions. Services and fees for overdrafts are shown in the document the Credit Union uses to capture the
member’s opt-in choice for overdraft protection and the Schedule of Fees and Charges.
For other types of transactions, if the balance in your account is not sufficient to pay the transaction amount, the Credit Union
may pay the amount and treat the transaction as a request to transfer funds from other deposit accounts, approved overdraft
protection accounts, or loan accounts that you have established with the Credit Union. If you initiate a transaction that
overdraws your account, you agree to make immediate payment of any overdrafts together with any service charges to the
Credit Union. In the event of repeated overdrafts, the Credit Union may terminate all services under this Agreement. You may
use your card and personal identification number (PIN) in ATMs of the Credit Union, NYCE, Plus networks, and such other
machines or facilities as the Credit Union may designate. In addition, you may use your Visa card without a PIN for certain
transactions on the Visa NYCE and Plus networks. However, provisions of this Agreement relating only to Visa debit
transactions, such as additional limits on your liability and streamlined error resolution procedures, do not apply to transactions
processed through non-Visa networks. To initiate a Visa debit transaction, you may sign a receipt, provide a card number, or
swipe or insert your card at a point-of-sale (POS) terminal and choose to route the transaction over a Visa network.
At the present time, you may also use your card to:
-

Make deposits to your savings and checking accounts.
Withdraw funds from your savings and checking accounts.
Transfer funds from your savings and checking accounts.
Obtain balance information for your savings and checking accounts.
Make point-of-sale (POS) transactions with your card and personal identification number (PIN) to purchase goods or
services at merchants that accept Visa.
- Order goods or services by mail or telephone from places that accept Visa.
The following limitations on Debit Card transactions may apply:
- You may purchase up to a maximum of $2,000.00 per day.
- You may withdraw up to a maximum of $500.00 in any one (1) day from an ATM machine, if there are sufficient funds in
your account.
- You may transfer up to the available balance in your accounts at the time of the transfer.
- See Section 2 for transfer limitations that may apply to these transactions.
b. MAT (Member Audio Teller). If we approve MAT (Member Audio Teller) for your accounts, a separate personal
identification number (PIN) will be assigned to you. You must use your personal identification number (PIN) along with your
account number to access your accounts. At the present time, you may use MAT (Member Audio Teller) to:
- Transfer funds from your savings, checking, and Money Fund accounts.
- Obtain balance information for your savings, checking, loan, club, and Money Fund accounts.

© CUNA Mutual Group 2008-10, 12-14, 17 All Rights Reserved

02005663-51002-C-1-072017 (510029)-e

-

Make loan payments from your checking and Money Fund accounts.
Access your Home Equity Line of Credit account.
Obtain tax information on amounts earned on savings and checking accounts or interest paid on loan accounts.
Obtain information about recent transactions.

Your accounts can be accessed under MAT (Member Audio Teller) via a touch-tone telephone only. MAT (Member Audio
Teller) service will be available for your convenience 24 hours per day. This service may be interrupted for a short time each
day for data processing.
The following limitations on MAT (Member Audio Teller) transactions may apply:
- There is no limit to the number of inquiries, transfers, or withdrawal requests you may make in any one (1) day.
- See Section 2 for transfer limitations that may apply to these transactions.
The Credit Union reserves the right to refuse any transaction which would draw upon insufficient funds, exceed a credit limit,
lower an account below a required balance, or otherwise require us to increase our required reserve on the account. The
Credit Union may set other limits on the amount of any transaction, and you will be notified of those limits. The Credit Union
may refuse to honor any transaction for which you do not have sufficient available verified funds. The service will discontinue if
no transaction is entered after numerous unsuccessful attempts to enter a transaction and there may be limits on the duration
of each telephone call.
c.

Preauthorized EFTs.

- Direct Deposit. Upon instruction of (i) your employer, (ii) the Treasury Department or (iii) other financial institutions, the
Credit Union will accept direct deposits of your paycheck or federal recurring payments, such as Social Security, to your
savings and/or checking account.
- Preauthorized Debits. Upon instruction, we will pay certain recurring transactions from your savings and/or checking
account.
- See Section 2 for transfer limitations that may apply to these transactions.
- Stop Payment Rights. If you have arranged in advance to make electronic fund transfers out of your account(s) for
money you owe others, you may stop payment on preauthorized transfers from your account. You must notify us orally or
in writing at any time up to three (3) business days before the scheduled date of the transfer. We may require written
confirmation of the stop payment order to be made within 14 days of any oral notification. If we do not receive the written
confirmation, the oral stop payment order shall cease to be binding 14 days after it has been made. A stop payment
request may apply to a single transfer, multiple transfers, or all future transfers as directed by you, and will remain in effect
unless you withdraw your request or all transfers subject to the request have been returned.
- Notice of Varying Amounts. If these regular payments may vary in amount, the person you are going to pay is required
to tell you, ten (10) days before each payment, when it will be made and how much it will be. You may choose instead to
get this notice only when the payment would differ by more than a certain amount from the previous payment or when the
amount would fall outside certain limits that you set.
- Liability for Failure to Stop Payment of Preauthorized Transfers. If you order us to stop payment of a preauthorized
transfer three (3) business days or more before the transfer is scheduled and we do not do so, we will be liable for your
losses or damages.
d. Electronic Check Conversion/Electronic Returned Check Fees. If you pay for purchases or bills with a check or draft,
you may authorize your check or draft to be converted to an electronic fund transfer. You may also authorize merchants or
other payees to electronically debit your account for returned check fees. You are considered to have authorized these
electronic fund transfers if you complete the transaction after being told (orally or by a notice posted or sent to you) that the
transfer may be processed electronically or if you sign a written authorization.
e. EZbank. If EZbank is activated for your account(s), you will be required to use secure login information to access the
account(s). At the present time, you may use EZbank to:
-

Transfer funds from your savings, checking, loan, and Money Fund accounts.
Obtain balance information for your savings, checking, loan, club, certificate, and Money Fund accounts.
Make loan payments from your savings, checking, and Money Fund accounts.
Access your Home Equity Line of Credit accounts.
Determine if a particular item has cleared.
Obtain tax information on amounts earned on savings and checking accounts or interest paid on loan accounts.
Verify the last date and amount of your payroll deposit.
Make bill payments to preauthorized creditors.
Place stop payment on a personal check.

Your accounts can be accessed under EZbank via personal computer. EZbank will be available for your convenience 24 hours
per day. This service may be interrupted for a short time each day for data processing. We reserve the right to refuse any
transaction which would draw upon insufficient funds, exceed a credit limit, lower an account below a required balance, or
otherwise require us to increase our required reserve on the account. We may set other limits on the amount of any
transaction, and you will be notified of those limits. We may refuse to honor any transaction for which you do not have
sufficient available verified funds. The service will discontinue if no transaction is entered after numerous unsuccessful
attempts to enter a transaction and there may be limits on the duration of each access.

02005663-51002-C-1-072017 (510029)-e

The following limitations on EZbank transactions may apply:
- The maximum withdrawal or transfer amount is $25,000.00 per day, and no transfer or withdrawal may exceed the
available funds in your account.
- See Section 2 for transfer limitations that may apply to these transactions.
f. Mobile Banking. If Mobile Banking is activated for your account(s), you will be required to use secure login information to
access the account(s). At the present time, you may use Mobile Banking to:
-

Transfer funds from your savings, checking, loan, and Money Fund accounts.
Obtain balance information for your savings, checking, loan, club, certificate, and Money Fund accounts.
Make loan payments from your savings, checking, and Money Fund accounts.
Access your Home Equity Line of Credit accounts.
Determine if a particular item has cleared.
Verify the last date and amount of your payroll deposit.
Make bill payments to preauthorized creditors.
Make a deposit into a checking account.

Your accounts can be accessed under Mobile Banking via mobile device or other approved access device(s). Mobile Banking
will be available for your convenience 24 hours per day. This service may be interrupted for a short time each day for data
processing. We reserve the right to refuse any transaction which would draw upon insufficient funds, exceed a credit limit,
lower an account below a required balance, or otherwise require us to increase our required reserve on the account. We may
set other limits on the amount of any transaction, and you will be notified of those limits. We may refuse to honor any
transaction for which you do not have sufficient available verified funds. The service will discontinue if no transaction is entered
after numerous unsuccessful attempts to enter a transaction and there may be limits on the duration of each access.
The following limitations on Mobile Banking transactions may apply:
- The maximum withdrawal or transfer amount is $25,000.00 per day, and no transfer or withdrawal may exceed the
available funds in your account.
- Maximum check deposit of $2,000.00 per day.
- See Section 2 for transfer limitations that may apply to these transactions.
g. Bill Pay. Please refer to the Bill Pay Terms & Conditions, provided at the time of enrollment and available to current users
at any time by logging into EZbank.
2. TRANSFER LIMITATIONS — For all savings and Money Fund accounts, you may make no more than six (6) transfers
and withdrawals from your account to another account of yours or to a third party in any month by means of a preauthorized,
automatic, or Internet transfer, by telephonic order or instruction, or by check, draft, debit card or similar order. If you exceed
these limitations, your account may be subject to a fee or be closed.
3.

CONDITIONS OF EFT SERVICES —

a. Ownership of Cards. Any card or other device which we supply to you is our property and must be returned to us, or to
any person whom we authorize to act as our agent, or to any person who is authorized to honor the card, immediately
according to instructions. The card may be repossessed at any time at our sole discretion without demand or notice. You
cannot transfer your card or account to another person.
b. Honoring the Card. Neither we nor merchants authorized to honor the card will be responsible for the failure or refusal to
honor the card or any other device we supply to you. If a merchant agrees to give you a refund or adjustment, you agree to
accept a credit to your account in lieu of a cash refund. Participating merchants may not offer a discount to encourage use of
your card rather than paying by cash or check.
c. Foreign Transactions.
Visa. Purchases and cash withdrawals made in foreign currencies will be debited from your account in U.S. dollars. The
exchange rate between the transaction currency and the billing currency used for processing international transactions is a
rate selected by Visa from a range of rates available in wholesale currency markets for the applicable central processing date,
which rate may vary from the rate Visa itself receives or the government-mandated rate in effect for the applicable central
processing date. The exchange rate used on the processing date may differ from the rate that would have been used on the
purchase date or cardholder statement posting date.
A fee of 1.00% of the amount of the transaction, calculated in U.S. dollars, will be imposed on all multiple currency foreign
transactions, including purchases, cash withdrawals and credits to your account. A fee of 0.80% of the amount of the
transaction, calculated in U.S. dollars, will be imposed on all single currency foreign transactions, including purchases, cash
withdrawals and credits to your account. A foreign transaction is any transaction that you complete or a merchant completes
on your card outside of the United States, with the exception of U.S. military bases, U.S. territories, U.S. embassies or U.S.
consulates.
d. Security of Access Code. You may use one (1) or more access codes with your electronic fund transfers. The access
codes issued to you are for your security purposes. Any access codes issued to you are confidential and should not be
disclosed to third parties or recorded on or with the card. You are responsible for safekeeping your access codes. You agree

02005663-51002-C-1-072017 (510029)-e

not to disclose or otherwise make your access codes available to anyone not authorized to sign on your accounts. If you
authorize anyone to use your access codes that authority shall continue until you specifically revoke such authority by notifying
the Credit Union. You understand that any joint owner you authorize to use an access code may withdraw or transfer funds
from any of your accounts. If you fail to maintain the security of these access codes and the Credit Union suffers a loss, we
may terminate your EFT services immediately.
e. Joint Accounts. If any of your accounts accessed under this Agreement are joint accounts, all joint owners, including any
authorized users, shall be bound by this Agreement and, alone and together, shall be responsible for all EFT transactions to or
from any savings and checking or loan accounts as provided in this Agreement. Each joint account owner, without the consent
of any other account owner, may, and is hereby authorized by every other joint account owner, make any transaction
permitted under this Agreement. Each joint account owner is authorized to act for the other account owners, and the Credit
Union may accept orders and instructions regarding any EFT transaction on any account from any joint account owner.
f. Stop Payment of EFTs. The initiation by you of certain electronic fund transfers from your account will, except as
otherwise provided in this Agreement, effectively eliminate your ability to stop payment of the transfers.
Unless otherwise provided in this Agreement, you may not stop payment of electronic fund transfers; therefore, you
should not employ electronic access for purchases and services unless you are satisfied that you will not need to
stop payment.
g. Account Rates. The dividend rates on accounts on which electronic fund transactions may be made are set forth in the
Credit Union’s Truth-in-Savings Disclosure.
4. FEES AND CHARGES — There are certain fees and charges for EFT services. For a current listing of all applicable fees,
see our current Schedule of Fees and Charges that was provided to you at the time you applied for or requested these
electronic services. From time to time, the charges may be changed. We will notify you of any changes as required by
applicable law.
If you use an ATM not operated by us, you may be charged a fee by the ATM operator and by any international, national,
regional, or local network used in processing the transaction (and you may be charged a fee for a balance inquiry even if you
do not complete a funds transfer). The ATM surcharge will be debited from your account if you elect to complete the
transaction or continue with the balance inquiry.
5. MEMBER LIABILITY — You are responsible for all transactions you authorize using your EFT services under this
Agreement. If you permit someone else to use an EFT service, your card or your access code, you are responsible for any
transactions they authorize or conduct on any of your accounts. However, TELL US AT ONCE if you believe your card and/or
access code has been lost or stolen, if you believe someone has used your card or access code or otherwise accessed your
accounts without your permission, or if you believe that an electronic fund transfer has been made without your permission
using information from your check. Telephoning is the best way of keeping your possible losses down. You could lose all the
money in your account (plus your maximum overdraft line-of-credit).
If a transaction was made with your card or card number without your permission and was a Visa transaction, you will have no
liability for the transaction, unless you were fraudulent or negligent in handling your account or card. For all other unauthorized
use involving the loss or theft of your card or access device or if you were fraudulent or negligent in handling your account or
card, your maximum liability for unauthorized use may be up to $50.00.
Also, if your statement shows transfers that you did not make including those made by card, access code or other means,
TELL US AT ONCE. If you do not tell us within 60 days after the statement was mailed to you, you may not get back any
money lost after the 60 days if we can prove that we could have stopped someone from making the transfers if you had told us
in time. If a good reason (such as a hospital stay) kept you from telling us, we will extend the time periods. This paragraph
does not apply to unauthorized use of a Visa or Mastercard debit card, an ATM card or other access device.
If you believe your card or access code has been lost or stolen or that someone has transferred or may transfer money from
your accounts without your permission, call:
(413) 256-5500
(800) 852-5886
or write to:
UMassFIVE College Federal Credit Union
200 Westgate Center Drive
PO Box 1060
Hadley, MA 01035
You should also call the number or write to the address listed above if you believe a transfer has been made using the
information from your check without your permission.
6. RIGHT TO RECEIVE DOCUMENTATION — Any documentation we provide to you that indicates that an electronic fund
transfer was made to another person shall be admissible as evidence of such transfer and shall constitute proof of the
transaction which it records.

02005663-51002-C-1-072017 (510029)-e

a. Periodic Statements. Transfers and withdrawals made through any debit card transactions, audio response transactions,
preauthorized EFTs, online/PC transactions, mobile access device transactions or bill payments you make will be recorded on
your periodic statement. You will receive a statement monthly unless there is no transaction in a particular month. In any case,
you will receive a statement at least quarterly.
b. Terminal Receipt. You can get a receipt at the time you make any transaction (except inquiries) involving your account
using an ATM and/or point-of-sale (POS) terminal.
c. Direct Deposit. If you have arranged to have a direct deposit made to your account at least once every 60 days from the
same source and you do not receive a receipt (such as a pay stub), you can find out whether or not the deposit has been
made by calling (413) 256-5500 or (800) 852-5886. This does not apply to transactions occurring outside the United States.
7. ACCOUNT INFORMATION DISCLOSURE — We will disclose information to third parties about your account or the
transfers you make:
- As necessary to complete transfers;
- To verify the existence of sufficient funds to cover specific transactions upon the request of a third party, such as a credit
bureau or merchant;
- If your account is eligible for emergency cash and/or emergency card replacement services and you request such
services, you agree that we may provide personal information about you and your account that is necessary to provide
you with the requested service(s);
- To comply with a proper government agency summons or request, lawful subpoena or court order;
- To any credit union employee, attorney, auditor, or collection agency for the Credit Union;
- To communicate the terms and history of your account to a consumer reporting agency; and
- If you give us your written permission.
8. BUSINESS DAYS AND HOURS — Our business days are Monday through Friday, excluding holidays. For account
inquiries or notices of authorized transactions, contact us during business hours between 8:00 and 5:00 on any business day.
9. CREDIT UNION LIABILITY FOR FAILURE TO MAKE TRANSFERS — If we do not complete a transfer to or from your
account on time or in the correct amount according to our agreement with you, we may be liable for losses or damages
proximately caused by our error. However, we will not be liable for direct or consequential damages in the following events:
- If, through no fault of ours, there is not enough money in your accounts to complete the transaction, if any funds in your
accounts necessary to complete the transaction are pledged or held as uncollected funds pursuant to our Funds
Availability Policy Disclosure, or if the transaction involves a loan request exceeding your credit limit.
- If you used your card or access code in an incorrect manner.
- If the ATM where you are making the transfer does not have enough cash.
- If the ATM was not working properly and you knew about the problem when you started the transaction.
- If any act of God (such as fire, flood, or power failure) prevents the transaction.
- If the money in your account is subject to legal process or other claim restricting such transfer.
- If any circumstances beyond our control (such as your willful or negligent use of your card, access code, or any EFT
facility for making such transfers) prevent the transaction.
- If the error was caused by a system of any participating ATM network.
- If the electronic transfer is not completed as a result of your willful or negligent use of your card, access code, or any EFT
facility for making such transfers.
- If the telephone or computer equipment you use to conduct audio response, online/PC, or mobile banking transactions is
not working properly and you know or should have known about the breakdown when you started the transaction.
- If you have bill payment services, we can only confirm the amount, the participating merchant, and date of the bill
payment transfer made by the Credit Union. For any other error or question you have involving the billing statement of the
participating merchant, you must contact the merchant directly. We are not responsible for investigating such errors.
- Any other exceptions as established by the Credit Union.
10. NOTICES — All notices from us will be effective when we have mailed them or delivered them to the appropriate address
in the Credit Union’s records. Notices from you will be effective when received by the Credit Union at the address specified in
this Agreement. We reserve the right to change the terms and conditions upon which this service is offered. We will mail notice
to you at least 21 days before the effective date of any change. Use of this service is subject to existing regulations governing
the Credit Union account and any future changes to those regulations.
The following information is a list of safety precautions regarding the use of ATMs and night deposit facilities:
-

Be aware of your surroundings, particularly at night.
Consider having someone accompany you when the ATM or night deposit facility is used after dark.
Close the entry door of any ATM facility equipped with a door.
If another person is uncomfortably close to you at the time of your transaction, ask the person to step back before you
complete your transaction. If it is after the regular hours of the financial institution and you are using an ATM, do not
permit entrance to any person you do not know.
- Refrain from displaying your cash at the ATM or night deposit facility. As soon as your transaction is completed, place
your money in your purse or wallet. Count the cash later in the safety of your car or home.

02005663-51002-C-1-072017 (510029)-e

- If you notice anything suspicious at the ATM or night deposit facility, consider using another ATM or night deposit facility
or coming back later. If you are in the middle of a transaction and you notice something suspicious, cancel the transaction,
take your card or deposit envelope, and leave.
- If you are followed after making a transaction, go to the nearest public area where people are located.
- Do not write your personal identification number (PIN) or access code on your ATM card.
- Report all crimes to law enforcement officials immediately. If emergency assistance is needed, call the police from the
nearest available public telephone.
11. BILLING ERRORS — In case of errors or questions about electronic fund transfers from your savings and checking
accounts or if you need more information about a transfer on the statement or receipt, telephone us at the following number or
send us a written notice to the following address as soon as you can. We must hear from you no later than 60 days after we
sent the FIRST statement on which the problem appears. Call us at:
(413) 256-5500
(800) 852-5886
or write to:
UMassFIVE College Federal Credit Union
200 Westgate Center Drive
PO Box 1060
Hadley, MA 01035
- Tell us your name and account number.
- Describe the electronic transfer you are unsure about and explain, as clearly as you can why you believe the Credit Union
has made an error or why you need more information.
- Tell us the dollar amount of the suspected error.
If you tell us orally, we may require that you send us your complaint or question in writing within ten (10) business days.
We will determine whether an error has occurred within ten (10)* business days after we hear from you and will correct any
error promptly. If we need more time, however, we may take up to 45** days to investigate your complaint or question. If we
decide to do this, we will credit your account within ten (10)* business days for the amount you think is in error so that you will
have the use of the money during the time it takes us to complete our investigation. If we ask you to put your complaint or
question in writing and we do not receive it within ten (10) business days, we may not credit your account.
We will tell you the results within three (3) business days after completing our investigation. If we decide that there was no
error, we will send you a written explanation. You may ask for copies of the documents that we used in our investigation.
* If you give notice of an error within 30 days after you make the first deposit to your account, we will have 20 business days
instead of ten (10) business days to investigate the error.
** If you give notice of an error within 30 days after you make the first deposit to your account, notice of an error involving a
point-of-sale (POS) transaction, or notice of an error involving a transaction initiated outside the U.S., its possessions and
territories, we will have 90 days instead of 45 days to investigate the error.
NOTE: If the error you assert is an unauthorized Visa transaction, other than a cash disbursement at an ATM, we will credit
your account within five (5) business days unless we determine that the circumstances or your account history warrant a
delay, in which case you will receive credit within ten (10) business days.
12. TERMINATION OF EFT SERVICES — You may terminate this Agreement or any EFT service under this Agreement at
any time by notifying us in writing and stopping your use of your card and any access code. You must return all cards to the
Credit Union. You also agree to notify any participating merchants that authority to make bill payment transfers has been
revoked. We may also terminate this Agreement at any time by notifying you orally or in writing. If we terminate this
Agreement, we may notify any participating merchants making preauthorized debits or credits to any of your accounts that this
Agreement has been terminated and that we will not accept any further preauthorized transaction instructions. We may also
program our computer not to accept your card or access code for any EFT service. Whether you or the Credit Union
terminates this Agreement, the termination shall not affect your obligations under this Agreement for any electronic
transactions made prior to termination.
13. GOVERNING LAW — This Agreement is governed by the bylaws of the Credit Union, federal laws and regulations, the
laws and regulations of the state of Massachusetts, and local clearinghouse rules, as amended from time to time. Any disputes
regarding this Agreement shall be subject to the jurisdiction of the court of the county in which the Credit Union is located.
14. ENFORCEMENT — You are liable to us for any losses, costs or expenses we incur resulting from your failure to follow
this Agreement. You authorize us to deduct any such losses, costs or expenses from your account without prior notice to you.
If we bring a legal action to collect any amount due under or to enforce this Agreement, we shall be entitled, subject to
applicable law, to payment of reasonable attorney’s fees and costs, including fees on any appeal, bankruptcy proceedings,
and any postjudgment collection actions.

02005663-51002-C-1-072017 (510029)-e

